Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





 MEDICAID MANDATORY SECOND

 SURGICAL OPINION PROGRAMS:

SUMMARIES OF STATE PROGRAMS





                Richard P. Kusserow

                INSPECfOR GENERA


                    OEI-03-81531
                          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. .. . . . . . . . ..




                     TABLE OF CONTENTS


INODUCTION. . 


PROGRA EIEMENTS ...........................................                                                                3



APPENDIX A: Mandatory SSOP Program Admstrators
            by State                                                                                  . . . . . . . A­

APPENDIX B: Mandatory SSOP Program Objectives
            by State                                                                                  . . . . . .. B­
APPENDIX C: Mandatory SSOP Frequently Covered
            Procedures by State . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. C­

APPENDIX D: Mandatory SSOP Restrictions on Second
            Opinon Consultants by State . . . . . . . . . . . . . . . . . . . . . . . . . . D­
APPENDIX E: Mandatory SSOP Reimbursement Policies
            by State                                                                                  . . . . . .. E­
                        INTRODUCTION


PURE
Ths report sumarizes the common elements of the I4 State Medicaid mandatory
Second Surgical Opinon Programs (SSOPs) in exitence in I 99.

BACKGROUN
Second Surgical Opinion Programs provide patients with an independent medical
opinon on the need for electe surgery. The seond opinion physician consultant
evaluates the decision of the referrg physician and provides an independent
determation on the necessity of the proposed surgery.
Theoreticall, SSOPs benefit patints   by   encouragig them to be more inormed and
involved in their medica treatment, by preventig unecessary surgery, and promoting
higher quality medical care. Preventig unecessary surgery can also save money.

An SSOP can be voluntary or mandatory. Voluntar programs encourage patients to
seek a second opinon before surgery. However, the surgery is covered even if the
patient dos not obtain a second opinon. In contrast, mandatory   progr     requie
patients to obtain a second opinon before surgery as a condition of fu health benefit
coverage.

Studies have shown that voluntar SSOPs have not reduced unecessary surgery or
achieved cost savigs because patient paricipation is low. Some mandatory SSOPs
have proven successfu in both reducing unecessary surgery and savig money.

In a companon report (OEI- 03- 89-0I530), we sumaried the results of a study which
provides inormation on recent State evaluations of Medicaid mandatory SSOPs. We
concluded that evidence is not strong enough to requie that al States adopt
mandatory SSOPs. We recommended that HCFA ensure that States put into place
appropriate utition control programs, which could , but need not, include SSOPs.
We are providig the inormation in ths report to HCFA and State Medicad agencies
for their consideration in designg such programs.

MEODOLOY
We obtaied detailed information from the I4 States with mandatory SSOPs. The
inormation included: year established , admnisterig agency, objectives, covered
procedures , reimbursement policy, nonconfiation rate , and program evaluation. We
visited four States (Colorado , Massachusetts , Michigan , and Pennsylvania) and
conducted detaled telephone intervews with the remaing       States. We obtaied
wrtten documentation to veri the information collected durg the site visits and
telephone diussions.


Ths report sumaris inormation on the followig SSOP program elements:
program admstrator, program objectes , covered procdures , role of second
opinon consultant, reimburment policies , nonconfation rates , and program
evaluations.
                         PROGRAM ELEMENTS

As shown in the followig map, I4 State Medicaid programs had mandatory SSOPs in
place durg I 99. These States were Colorado , Indiana, Maryland , Massachusetts
Michigan, Miesota, Missour , New Jersey, Oregon , Pennsylvania , Tennessee
Virgia, Washigton , and Wisconsin.




                                      HAIf

                                   STATES WITH MANDATORY SSOPS
               ::::::::::::::::I
                                   AS OF CALENDAR YEAR 1990

Massachusetts, which established its SSOP in I976 , has the oldest program stil in
operation. Michigan also established its SSOP in I976, but ended the program in
October I99.

Most other States established their programs between I98I and I986. The newest
programs are in Pennsylvania and Maryland , which established mandatory SSOPs in
I989 and I99, respectively.
PROGRA ADMITOR
The SSOPs are admnistered by State Medicaid Agencies , Medicare Peer Review
Organition (PROs),     or private organiztions. Four State agencies admster the
SSOPs themselves. Five States use PROs to admnister their programs , and five
others use private review groups. See Appendi A for a State by State list of
admsterig agencies.
PROGRA        OBJ
We identified four distinct program objectives in the Medicaid mandatory SSOPs:

       prevent unnecessary surgery,

       save money,

       educate patients about treatment alternatives , and

       improve quality of patient care.

States varied in the number of objectives included in their programs. Six States
included all four objectives , five had three objectives , and three others had two
objectives.

Two States (Colorado and Pennsylvania) consider patient education their priary
objective. Washigton places emphasis on reducing unecessary surgery and patient
education , whie Wisconsin views reducing unecessary surgery and improvig quality
of care as most important. Each of these States has other program objectives as well
but they are secondary in importance. See Appendi B for a table of program
objecties by State.

COVE PROCUR
Both the number of procedures covered and the procdures themselves varied widely.
One State , Oregon , includes all proposed elective inpatient procdures in its
mandatory SSOP. In the other I3 States , we identifed 45 dierent elective
procedures which were covered by at least I program. The number of procedures
covered by SSOPs ranged from 27 (Colorado and Indiana) to 2 (Washigton), with a
median of IO.

The most frequently covered procdures     were hysterectomy(13), tonsilectomy/
adenoidectomy (12), cholecystectomy (IO), herna repair (8), lamiectomy (8), spinal
fusion (7), hemorrhoidectomy (7), coronary artery bypas graft (6), and cataract
removal (6). Twelve other procedures were covered by only 2 States , whie another IS
were covered by only I State.    See Appendi C for a matr of the most frequentl
covered procdures by    State.

Because of the wide variation in covered procedures, we asked States how procedures
were selected. Nine indicated that they selected high frequency, high cost procedures
based on analysis of data available at the time their programs were established.
However, few States review and update their covered procedures lists in a systematic
way. Some have not changed since the early I980s.
The exception is Colorado , which conducts a formal annual analis of covered
procedures. The review is designed to (I) determ whether curentl covered
procedures are stil appropriate, (2) identi changes in physician practice patterns
and (3) evaluate the impact of new technology on the appropriateness of coered
procedures.

ROLE OF SECND OPINON CONSUTAN

The second opinon consultat   is a physician who corroborates or refutes the referrg
physician s recommendation for surgery. The States are almost equal dided on
four key varibles:


       consultant qualications - Six States requie the second opinon consultat to
       be bod certif or eligible for certcation. The remaider requie onl that
       the consultant be licensed to practice in that State.

       physician panel -- Seven States maitai   a panel of physicians in various
       specialties. Only physician on the panel may serve as the second opinon
       consultant. The remaig seven States have no such requiement.

       restrictions on performi surgety -- Six States allow the consultant to perform
       the proposed surgery whie seven others prohibit ths practice. One State has
       not established a policy on th
                                    isue.
       business relationship between referrni physician and consultant -- Eleven
       States place restrictions on the business relationship between the referrg
       physician and the second opinon consultant.

Four States (Colorado, Maschustts Michigan and New Jersey) place the most
restrictions on the second opinon consultant. These States requie board certcation
(or eligibilty), select consultats from a preestablished panel, prohtbit the consultants
from performg the propod surgery, and restrict their business relationships with
referrg physicians.
In contrast, programs in two States (Miouri and Tennessee) place no restrictions on
the second opinon consultat. Two others (Indiana and Virgia) lit onl the
business relationship between the referrg physician and the consultat.

Appendi D provides more detail on State restrictions on second opinon consultants.

REIMUR POUCI
Nonconfng second opinon -- Five of the I4 States pay for surgery only if the
second opinon confis the referrg physician s opinon. The other nine reimburse
for surgery even if there is a nonconfg second opinon.
Failure to obtain a required second opinion -- Ten States provide no coverage for
surgery if the patient fails to obtain a requied second opinon. Four States provide
fu or partal benefits. Pennsylvania wi pay hal of the normal reimbursement to
both the 
urgeon and the facilty. Tennessee , Washigton , and Wisconsin provide
coverage for the facilty, but pay nothig to the surgeon.

See Appendi E for more inormation on State reimbursement policies.
NONCONFTION RATE
Eight States provided recent nonconfation rate data. The nonconfation rate is
the percentage of time that a second opinon does not confi the fist opinon.

As shown below,  nonconfation rates ranged from 0.59 percent in Oregon to 10.
percentage in Michigan , with a mean of 4. 9 percent. States reportg the highest
nonconftion rates (MI, W A, WI, MA and NJ) reimburse for surgery even with
nonconf second opinons. In thee of these States (MA MI, and W A), about
half the Medicad clients had the surgery despite the nonconfg second opinon.


                  NONCONFIRMATION RATES

                                 ...ClIO.ICI P8Y. tor .uro.ry.
                                 _n    wit" nonoontlr,.,no
                                 ..0.nCl opinion
                                                                    NO P8y",.nt tor .urg.ry
                                                                    wll" nonoontlrmino
                                                                     ..00nCl opinion


               MICHIGAN                                                                10.
             fNSHINGTON
              WISCONSIN

     MASSACHUSETTS

             NEW JERSEY

              MINNESOTA                          f"4


              COLORADO

                OREGON


                                                          Percent

In contrast,States with the lowest nonconfiation rates (OR, CO and MN) do not
pay for surgery with a nonconfirming second opinion.
In Michigan , which reported the highest nonconfation   rate (10.   6 percent) hal   of
the Medicaid clients had surgery despite a nonconfg     second opinon.
mentioned earlier, Michigan discontinued its SSOP in I 99.

PROGRA EVALUATIONS
Only thee States (Colorado , Michigan, and Wiscnsin) were able to provide recent
evaluation inormation on their programs. See the companon report for more
inormation on ths   subject.
               APPENDIX A

  MAATORY SECOND SURGICAL OPINION PROGRAS

         PROGRA ADMINISTRTORS

                  as of June 1990


                   PROGRA ADMISTRTOR

                         PEE      PRIATE
STATE          MEICA           REVIW
               AGENCY     ORGANTION    ORGANTION
COLORA
INIAA
MAYL
MASACHSETI
MICHIGAN
MINOTA
MISSOURI
NEW JERSEY
OREGON
PENNSYLVANIA
TENNEE
VIGIN
WASHINGTON
WISCONSIN
TOTAL




                        A ­

. =




                         APPENDIX 

      MAATORY SECOND SURGICAL OPINION PROGRAS

           PROGRA OBJECfNES BY STATE

                                June 1990




                                OBJ

                SAVIGS
                         UNY
                          SUGEY
                                      IMROVE
                                      QUAU
                                      OF
                                               PATI
                                               ED"l
  COLORA
  INIAA
  MAYL
  MASACHSET
  MICHIGAN

  MINOTA
  MISSOURI

  NEW JESEY
  OREGON

  PENSYLVANIA
  TENNSEE
  VIGINIA
  WASHINGTON

  WISCONSIN                .X


  TOTAL

      DE PRY    OBJ





                                  B - I

                                 APPENDIX 

     MAATORY SECOND SURGICAL OPINION PROGRAS
        FREQUENTY COVERED PROCEDURES BY STATE*
                                              as of June 1990

                                                              STAlE
 PR(X
 HYSTEREcrMY (13)
 TONSILcrMYI

 ADENOIDECMY (12)

 CHOLECYcrOMY (10)

 HEIA REAI (8)

 LAINMY (8)

 HEMORROIDEcrOMY (7)
 SPINAL FUSION (7)

 CORONARY AR'rRY

 BYPAS GRA (6)
 CATARcr REOVAL (6)
 DllTATION 

 CURTfAGE (5)

 JOIN REPLACEMENT (5)

 TRSUR
 REEcnON OF 

 PROSA'r-   TI   (5)

 DEVI'rD NASAL       SEPTU
 REEcnON (4)
 BRET SURGERY (3)
 CORONARY

 ANGIOPLA (3)

 FO SURGERY (3)
 MYINGOTOMY (3)
 VARICOSE VEIN

 EXCISIONILIGATION (3)



. Do no inud Oreon which reuir   SSOP   for     eleiv inpatiet prure.




                                                   C - I

                  APPENDIX D

   MAATORY SECOND SURGICAL OPINION PROGRAS

     RESTRICfIONS ON SECOND OPINION CONSULTANS

                        as of June 1990



                                             MAY
               BOAR
             CETICATI
                           FROM
                          PHIC             PER          BUS
                                                       wn
             EUGmlL        PAN             SUGERY       PHIa
COLORA
INIAA
MAYL
MAACHSET
MICHIGAN

MINOTA
MISSOURI

NEW JERSEY

OREGON                                     NO POLICY

PENNSYLV

1ENNEE
VIGINIA
WASHINGTON

WISCONSIN

TOTAL




                            D - I

                   APPENDIX E

   MAATORY SECOND SURGICAL OPINION PROGRAS
               STATE REIMURSEMENT POLICY


                  PAYS                         PAYS
                FO SUGEY                   FO SUGEY
                                   PATI FAI
                                          IF
                                   TO OBAI
               SE OPIN           SH    OPIN
                               FAC        SUGE
COLORA                          NONE                  NONE

INIAA                           NONE                  NONE

MAYL                            NONE                  NONE

MASACHSETI                      NONE                  NONE

MICHIGAN                        NONE                  NONE

MINOTA                          NONE                  NONE

MISSOURI                        NONE                  NONE

NEW JERSEY                      NONE                  NONE

OREGON                          NONE                  NONE

PENNSYLVANIA                        SO%               SO%

TENNEE                              100               NONE

VIGINIA                         NONE                  NONE

WASHINGTON                          100               NONE

WISCONSIN                           100               NONE

TOTAL




                           E - 1

